SIGAR                                                        Special Inspector General for
                                                              Afghanistan Reconstruction




                                                                             SIGAR Audit 13-6



      CONTRACTING WITH THE ENEMY: DOD
      Has Limited Assurance that Contractors
      with Links to Enemy Groups Are Identified
      and their Contracts Terminated




                                                                                APRIL

                                                                                2013
SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA
SIGAR
                                                   APRIL 2013
                                                   CONTRACTING WITH THE ENEMY: DOD Has Limited Assurance that
                                                   Contractors with Links to Enemy Groups Are Identified and their Contracts
                                                   Terminated

Special Inspector General for                      SIGAR AUDIT 13-6
Afghanistan Reconstruction

WHAT SIGAR REVIEWED                                WHAT SIGAR FOUND
To reduce the risk of inadvertently                DOD has established a two-phase process to comply with Section 841. The
contracting with individuals or entities           first phase of the process involves targeting, reviewing, and designating a
that provide funds to groups that oppose           Section 841 person or entity, and, ultimately, notifying the Head of the
U.S. and coalition forces, Congress                Contracting Activity (HCA) of this designation. U.S. Forces–Afghanistan’s
included Section 841 in the fiscal year            Task Force 2010 (TF2010) currently administers the intelligence portion
2012 National Defense Authorization Act            established by Section 841. Once a target has been identified, TF2010
(NDAA). Section 841 permits the                    assembles an information package on the target and conducts preliminary
Department of Defense (DOD) to                     intelligence and legal analyses. The Section 841 information package is
authorize a Head of a Contracting Activity         routed through a series of coordinating agencies of the International
(HCA) to restrict, terminate, or void a DOD        Security Assistance Force Joint Command for review and concurrence before
contract, grant, or cooperative agreement          it goes to CENTCOM for a final decision. Upon approval, the CENTCOM
with an entity or individual determined to         Commander prepares a Section 841 notification listing the entities
be actively supporting an insurgency or            identified, along with a request that the HCAs exercise the authority
otherwise opposing U.S. or coalition               provided in Section 841 to restrict, terminate, or void contracts with those
forces in the Central Command                      listed. CENTCOM then distributes the notification to the HCAs. In the
(CENTCOM) theater of operations,                   second phase, the HCAs determine if they have any contracts with the
including Afghanistan. As of January 18,           person or entity listed in the CENTCOM notification. The process concludes
2013, CENTCOM had issued four                      when the HCA responds to CENTCOM with the actions taken on the
notification letters identifying five              contracts.
companies and their associates as                  SIGAR identified several weaknesses in DOD’s process for implementing
Section 841 designees.                             Section 841 that prevent the department from having reasonable
This report describes the processes DOD            assurance that U.S. government contracting funds are not being provided to
has established to implement Section               persons and entities supporting the insurgency and opposing U.S. and
841, assesses the extent to which DOD’s            coalition forces. As a result, millions of contracting dollars could be diverted
process for implementing Section 841               to forces seeking to harm U.S. military and civilian personnel in Afghanistan
has aided in identifying and preventing            and derail the multi-billion dollar reconstruction effort.
U.S. contracting funds from being                  Specifically, SIGAR found:
provided to individuals and entities
                                                        •   Some contracts did not (1) contain the required language clause
identified as actively supporting an
                                                            prohibiting contractors from entering into subcontracts with Section
insurgency or opposing U.S. or coalition
                                                            841 designees or (2) notify contractors of HCAs’ authorities. The
forces in Afghanistan, and lists some
                                                            agency’s failure to include the clause in contracts may prevent
areas of the Section 841 legislation that
                                                            contractors from knowing their legal requirement to avoid
could be strengthened to prevent
                                                            contracting with Section 841 designees and understanding the
contracting with the enemy.
                                                            HCAs’ authorities to restrict, terminate, or void their contracts if
SIGAR conducted this work in                                they fail to meet their legal obligations.
Washington, D.C.; Tampa, Florida; San                   •   Some HCAs did not receive CENTCOM’s notification identifying
Antonio, Texas; and three provinces in                      supporters of enemy groups, which may make it difficult for HCAs
Afghanistan from August 2012 to April                       to take necessary actions on any contracts issued to Section 841
2013 in accordance with generally                           designees.
accepted government auditing standards.




       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
•     HCAs have not consistently informed their prime contractors
                                                                                WHAT SIGAR RECOMMENDS
      of Section 841 designations, even though the most recent
      Section 841 notification requests that they do so.                        SIGAR is making seven
      Furthermore, DOD has not developed a formal policy for all                recommendations to the Director of the
      HCAs to notify prime contractors of Section 841                           Office of Defense Procurement and
      designations, leaving it to the individual HCAs to develop                Acquisition Policy (DPAP): five
      their own. In the absence of a formal policy, HCAs and prime              recommendations to improve visibility
      contractors may continue to contract with and award future                over active contracts in Afghanistan;
      contracts to Section 841 designees in violation of the law.               one to formally determine, in
•     CENTCOM began posting Section 841 designations on its                     coordination with the Commander of
      public website in January 2013; however, contracting officers             CENTCOM, which entity will be
      and prime contractors are not required to regularly review the            responsible for centrally tracking data
      information.                                                              on Section 841 actions, thus preventing
                                                                                duplication of effort; and one to ensure
•     Because HCAs do not have full visibility over most
                                                                                that HCAs have the information needed
      subcontracts, they must rely on their prime contractors to
                                                                                to respond to legal challenges and
      identify subcontracts with Section 841 designees and take
                                                                                address any financial liabilities that
      necessary steps to terminate, restrict, or void them. Currently,
                                                                                may result from exercising their Section
      prime contractors are not required to formally certify that they
                                                                                841 authorities. DPAP provided
      do not hold any subcontracts with Section 841 designees. As
                                                                                informal comments that generally
      a result, HCAs have little assurance that they are identifying
                                                                                supported our recommendations for
      all contracts with Section 841 designees.
                                                                                improving the process for notifying the
•     HCAs and prime contractors are at risk of legal challenges                DOD acquisition community and
      from Section 841 designees because DOD has not provided                   contractors of Section 841 designees.
      guidance addressing the consequences of and actions to                    However, formal comments will be
      take after exercising Section 841 authorities. Contracting                provided after the release of the final
      officials also lack guidance for absorbing the financial costs,           report.
      such as seeking a new contractor, associated with restricting,
      terminating, or voiding a contract with a Section 841                     MATTERS FOR CONGRESSIONAL
      designee. Without such guidance, HCAs and prime                           CONSIDERATION
      contractors may not be able to formulate an appropriate
      response to current and future legal challenges.                          SIGAR is also including matters for
                                                                                congressional consideration. To ensure
•     DOD does not centrally track actions taken pursuant to
                                                                                all contracts in Afghanistan are subject
      Section 841 authorities. Section 841 requires the Secretary
                                                                                to Section 841, Congress may wish to
      of Defense to report annually to Congress in 2013, 2014, and
                                                                                consider eliminating the $100,000
      2015 on the use of authorities during the preceding year.
                                                                                threshold value for contracts. To
      Currently, both DPAP and CENTCOM are collecting this data,
                                                                                provide DOD with greater clarity on the
      resulting in a duplication of effort.
                                                                                future of designations and efforts made
Finally, SIGAR found areas where Section 841 could be                           under Section 841, Congress may wish
strengthened. For instance, Section 841 only applies to contracts               to provide guidance on the status of the
valued in excess of $100,000, although approximately 80 percent                 designations once the legislation
of contracts awarded in Afghanistan fall below the $100,000                     expires on December 31, 2014. Lastly,
threshold. In addition, Section 841 will expire on December 31,                 if the intent is for Section 841
2014, putting in question the status of designations made under                 designations to expire with the
the section and relevant clauses included in contracts issued                   legislation, Congress may wish to
prior to this date.                                                             consider requiring contracting agencies
SIGAR is addressing Department of State and U.S. Agency for                     to preserve information and intelligence
International Development efforts to prevent contracting with the               gathered through the Section 841
enemy in a separate review.                                                     process.




    For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 11, 2013
The Honorable Charles T. Hagel
Secretary of Defense
Mr. Richard T. Ginman
Director, Defense Procurement and Acquisition Policy
   Department of Defense
General Lloyd J. Austin III
Commander, U.S. Central Command
General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force
The Honorable James Cunningham
   U.S. Ambassador to Afghanistan
This report discusses the results of SIGAR’s audit of the Department of Defense’s (DOD)
compliance with Section 841—Prohibition on Contracting with the Enemy in the United States
Central Command (CENTCOM) Theater of Operations—of the Fiscal Year 2012 National
Defense Authorization Act. This report includes seven recommendations to DOD’s Office of
Defense Procurement and Acquisition Policy to improve visibility over contracts, particularly
subcontracts, in Afghanistan. The recommendations are designed to ensure that DOD has a
central mechanism for tracking data on actions taken in response to Section 841 and that
contracting agencies have the guidance needed to respond to legal challenges and address
financial liabilities that result after they have exercised their Section 841 authorities.
When preparing the final report, we considered technical comments from CENTCOM, the U.S.
Army Corps of Engineers, and the Air Force Civil Engineering Center. DOD’s Office of Defense
Procurement and Acquisition Policy also provided informal comments that generally supported
our recommendations. However, Defense Procurement and Acquisition Policy officials stated
that formal comments will be provided after the release of the final report. SIGAR conducted
this performance audit under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 3

DOD Has Established a Two-phase Process to Comply with Section 841 .............................................................. 4

Weaknesses Exist in DOD’s Section 841 Process .................................................................................................... 5

Section 841 Legislation Needs to Be Strengthened ................................................................................................ 7

Conclusion ................................................................................................................................................................... 8

Recommendations ...................................................................................................................................................... 8

Matters for Congressional Consideration................................................................................................................... 9

Agency Comments ....................................................................................................................................................... 9

Appendix I - Scope and Methodology ....................................................................................................................... 10

Appendix II - Department of Defense Section 841 Implementation Process ........................................................ 12
Appendix III - Acknowledgments ............................................................................................................................... 15


FIGURES

Figure I - Section 841 Process .................................................................................................................................. 12



ABBREVIATIONS

             AFCEC                             Air Force Civil Engineer Center

             CENTCOM                           Central Command
             C-JTSCC                           Central Command-Joint Theater Support Contracting Command

             DFARS                             Defense Federal Acquisition Regulation Supplement

             DOD                               Department of Defense
             HCA                               Head of Contracting Activity

             ISAF                              International Security Assistance Force

             NDAA                              National Defense Authorization Act

             OSD AT&L                          Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics

             TF2010                            Task Force 2010

             SIGAR                             Special Inspector General for Afghanistan Reconstruction

             USACE                             U.S. Army Corps of Engineers




SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                                                                    Page i
After 10 years of contingency operations, contractors continue to support U.S. military and civilian-led efforts in
Afghanistan by providing a broad range of supplies, services, and critical logistics functions. In fiscal year
2012, the U.S. Central Command (CENTCOM) 1 Joint Theater Support Contracting Command (C-JTSCC) data
showed that it awarded 9,733 contracts, valued at approximately $1.7 billion. 2 The first quarter fiscal year
2013 manual census conducted by CENTCOM reported 110,000 contract personnel working in Afghanistan
between October and December 2012. Reflecting U.S. and coalition guidance that emphasizes the importance
of local contracting, C-JTSCC awarded 8,634 of these contracts—about 89 percent of the total contract value—
to Afghan contractors. Several prior audit and research reports discuss the numerous and unique challenges
of contracting in Afghanistan, particularly with non-U.S. contractors. 3 These challenges include the limited
availability of oversight staff for contracts, the small pool of qualified local contractors, and an environment of
insecurity and corruption that increases the risk of U.S. funds being misused to finance terrorist or insurgent
groups.
To reduce the risk and effects of inadvertently contracting with individuals or entities that have links to and
could provide funds to insurgents and others who oppose U.S. and coalition forces, Congress included Section
841—Prohibition on Contracting with the Enemy in the United States Central Command Theater of Operations—
in the National Defense Authorization Act (NDAA) for Fiscal Year 2012. 4 Section 841 permits the Department
of Defense (DOD), pursuant to a request from the CENTCOM Commander, to authorize the Head of a
Contracting Activity (HCA) to restrict, terminate, or void a DOD contract, grant, or cooperative agreement that it
determines would provide funding directly or indirectly to a person or entity identified as actively supporting an
insurgency or otherwise actively opposing U.S. or coalition forces in the CENTCOM theater of operations,
including Afghanistan. 5
This report (1) describes the processes DOD has established to implement Section 841, (2) assesses the
extent to which DOD’s policies and procedures for implementing Section 841 have been able to identify and
prevent U.S. contracting funds from being provided to individuals and entities identified as actively supporting
an insurgency or opposing U.S. or coalition forces in Afghanistan, and (3) lists some areas of the Section 841
legislation that could be strengthened to prevent contracting with the enemy.
To accomplish our objectives, we reviewed Section 841 and examined a variety of DOD contracting policies and
procedures. These policies and procedures included the Defense Federal Acquisition Regulation Supplement
(DFARS), C-JTSCC acquisition procedures, and International Security Assistance Force (ISAF) contracting and
counterinsurgency guidance. Additionally, we sent a standardized questionnaire to DOD’s HCAs in order to
identify the policies and procedures they used to consider the CENTCOM Commander’s request and the factors
considered when determining whether to restrict, terminate, or void a contract, grant, or cooperative agreement
after being notified of a Section 841 designation. We also reviewed a judgmental sample of 230 contracts
from the U.S. Army Corp of Engineers (USACE), Air Force Civil Engineering Center (AFCEC), and C-JTSCC to
ensure compliance with Section 841 requirements. We interviewed relevant DOD officials from the Office of


1 CENTCOM is one of the nine combatant commands in the U.S. military. Its area of responsibility consists of 20 countries
in Middle East and Southwest Asia, including Afghanistan.
2 This figure represents C-JTSCC only and does not reflect the entire universe of contracts in the Afghanistan theater of
operation.
3 Government Accountability Office, U.S. Efforts to Vet Non-U.S. Contractors Need Improvement, GAO-11-355, 6/8/2011;
Congressional Research Service, Wartime Contracting in Afghanistan: Analysis and Issues for Congress,11/14/2011.
Committee on Oversight and Government Reform, Warlord, Inc.: Extortion and Corruption Along the U.S. Supply Chain in
Afghanistan, 6/22/2010.
4   Pub. L. 112-81.
5 According to Defense Federal Acquisition Regulation Supplement, Subpart 202.1, a DOD contracting activity is an entity
designated by the director of a defense agency with contracting authority through its agency charter. For example, the U.S.
Army Corps of Engineers is considered an HCA. Large DOD agencies, such as the Department of the Army, may have
multiple HCAs under their command.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                   Page 2
the Under Secretary of Defense for Acquisition, Technology, and Logistics (OSD AT&L), CENTCOM, USACE, and
AFCEC. We conducted our work in Washington, D.C.; Tampa, Florida; San Antonio, Texas; and Kabul, Kandahar,
and Parwan provinces in Afghanistan from August 2012 to April 2013 in accordance with generally accepted
government auditing standards. A discussion of our scope and methodology is included in appendix I


BACKGROUND

The International Security Assistance Force (ISAF) Commander’s counterinsurgency contracting guidance
issued in September 2010, and similar contracting guidance issued by the Department of State and the U.S.
Agency for International Development in November 2010, confirmed the importance of contracting to the U.S.
mission in Afghanistan. In particular, the guidance emphasizes the importance of contracting with Afghan
contractors and purchasing Afghan goods—a policy collectively known as Afghan First—as a key element of the
U.S. counterinsurgency strategy. 6 However, in light of cases like the Host Nation Trucking contract, 7 in which
funds paid by contractors for the safe passage of U.S. military goods are widely believed to have been funneled
to insurgents, the U.S. government has launched a variety of efforts to prevent contracting abuse and decrease
the likelihood of funds being diverted to terrorist or insurgent groups. 8
In an effort to prevent U.S. government contracting funds from being diverted to terrorist or insurgent groups,
Congress included Section 841 in the fiscal year 2012 NDAA. In addition to establishing the prohibition on
contracting with terrorist or insurgent groups, Section 841:
    •    Directs the Secretary of Defense to revise DFARS to reflect provisions of Section 841 no later than 30
         days after the date of enactment of the NDAA. 9
    •    Calls for the CENTCOM Commander to establish a program that uses intelligence data to review and
         identify persons and entities with DOD contracts, grants, or cooperative agreements that are actively
         supporting an insurgency or otherwise opposing U.S. or coalition forces in a contingency operation in
         Afghanistan or other countries in the CENTCOM theater of operations. 10
    •    Permits the Secretary of Defense to authorize an HCA, pursuant to a request from the CENTCOM
         Commander, to restrict, terminate, or void a contract determined to provide funding to active insurgent
         elements and opponents of U.S. or coalition forces.
    •    Requires all contracts with an estimated value over $100,000 that will be performed in the CENTCOM
         theater of operations to include a clause notifying the contractor or recipient to exercise due diligence
         to ensure that none of the funds received under the contract are provided directly or indirectly to a
         person or entity actively supporting an insurgency or opposing U.S. or coalition forces. The clause also


6 We previously reported on the Afghan First Initiative (see SIGAR Audit-12-6, Afghan First Initiative Has Placed Work with
Afghan Companies, but Is Affected by Inconsistent Contract Solicitation and Vetting, and Employment Data Is Limited,
January 31, 2012).
7 The principal contract supporting the U.S. supply chain in Afghanistan was Host Nation Trucking, a $2.16 billion contract
split among eight Afghan, American, and Middle Eastern companies. The Host Nation Trucking contract provided trucking
for over 70 percent of the total goods and materiel distributed to U.S. troops in the field—roughly 6,000 to 8,000 truck
missions per month. The trucks carried food, supplies, fuel, ammunition, and Mine Resistant Ambush Protected vehicles.
8 The U.S. government’s efforts to prevent contracting abuse and prevent the diversion of funds to terrorist or insurgent
group include (1) DOD and U.S. Agency for International Development programs to vet non-U.S. contractors; (2) interagency
task forces created to identify malign actors, encourage transparency, and prevent corruption, such as Task Force 2010
and the Afghan Finance Threat Cell; and (3) DOD training programs for contracting officer representatives with a focus on
contingency operations.
9 This was achieved through DFARS Class Deviation 2012-O0005, which the Under Secretary of Defense for Acquisition,
Technology, and Logistics Office of Defense Procurement and Acquisition Policy issued on January 26, 2012.
10 For the purposes of this report, we use the term “contract” to refer collectively to contracts, grants, cooperative
agreements, and task orders, unless noted otherwise.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                      Page 3
           requires HCAs to inform contractors or recipients of grants and cooperative agreements of the HCAs’
           authority to terminate, restrict, or void the contract.
      •    Requires the Secretary of Defense to report annually to the congressional defense committees on the
           use of authorities provided under Section 841.


DOD HAS ESTABLISHED A TWO-PHASE PROCESS TO COMPLY WITH SECTION 841

DOD, through CENTCOM, has implemented a two-phase process to comply with Section 841. The first phase of
the process involves targeting, reviewing, and designating a Section 841 person or entity, and, ultimately,
notifying HCAs of these designations. U.S. Forces–Afghanistan’s 11 Task Force 2010 (TF2010) currently
                                                                        12
administers the intelligence portion established by Section 841. TF2010 primarily identifies targets for a
potential Section 841 designation through self-initiated cases and contractor vetting reports. Once a target has
been identified, TF2010 assembles an information package on the target and conducts preliminary intelligence
and legal analyses for the TF2010 Director’s approval. Once approved by the TF2010 Director, the Section 841
information package is routed through a series of coordinating agencies of ISAF Joint Command for review and
concurrence before it goes to CENTCOM Command for a final decision and designation. If the CENTCOM
Commander approves it, 13 the Commander prepares an unclassified Section 841 notification letter listing the
person or entities identified, along with a request that the heads of agency or HCAs exercise the authority
provided in Section 841 to restrict, terminate, or void contacts with those listed. CENTCOM then distributes the
notification letter via email to key heads of agency and select HCAs. 14
In the second phase, the key heads of agency and select HCAs determine if they have any contracts with the
person or entity listed in the CENTCOM notification letter. The process concludes when the head of agency or
HCA responds to CENTCOM with information on the number and value of any contracts with the person or entity
and the actions taken on the contracts. For a more detailed description of the Section 841 process, see
appendix II.
As of January 18, 2013, CENTCOM has issued four notification letters identifying five companies and their
                                           15
associates as supporters of enemy groups. According to DOD officials, no prime contracts have been
terminated as a result of these Section 841 designations because none were active when the designation took
       16
effect. However, at the direction of USACE and AFCEC contracting officers, a prime contractor terminated
eight active subcontracts awarded to a Section 841 designee. The value of these subcontracts was

11   U.S. Forces–Afghanistan is under the command of CENTCOM.
12 TF2010 is a unit made up of intelligence, law enforcement, auditors, and forensic analysts from both military and civilian
agencies. Its mission is to help commanders and acquisition teams better understand with whom they are doing business
and recommend actions that deny power-brokers, criminal, and insurgent actors the opportunity to benefit from diverted
U.S. contracting dollars and government-funded equipment and supplies, thus undermining the U.S. government’s
reconstruction and counterinsurgency efforts.
13   As of January 18, 2013, the CENTCOM Commander had approved all five Section 841 cases received.
14 The CENTCOM Section 841 notification letter distribution list continues to evolve, and currently is composed of a
combination of heads of agency, such as the Department of the Army, and HCAs, such as the National Security Agency.
15 On January 18, 2013, CENTCOM issued the fourth notification letter on the Kam Airlines group of companies and their
associates. On February 9, 2013, CENTCOM suspended the January 18, 2013, notification, with the understanding that an
independent investigation of the activities of Kam Air and their associates will be conducted by the Government of
Afghanistan. For a complete listing of Section 841 designated companies and their affiliates, please visit the CENTCOM
website at www2.centcom.mil/sites/contracts.
16 DOD previously held contracts with parties identified within the four Section 841 notification letters. According to
officials, USACE had awarded at least seven contracts, valued at over $35 million, to persons or entities that currently have
a Section 841 designation. However, the agency awarded these contracts prior the enactment of the fiscal year 2012
NDAA, and the contracts were no longer active at the time of the Section 841 designation.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                   Page 4
approximately $12 million; about $5 million of these funds had already been paid to the subcontractor when
the contracts were terminated.


WEAKNESSES EXIST IN DOD’S SECTION 841 PROCESS

Currently, DOD’s Section 841 process does not provide reasonable assurance that HCAs are identifying all
contracts awarded to persons or entities that are supporting the insurgents or other enemies. Because HCAs
do not have visibility over most subcontracts awarded in Afghanistan, agencies must rely on prime contractors
to determine whether they have awarded any subcontracts to persons or entities listed in a Section 841
notification letter. The DFARS class deviation issued in response to the Section 841 legislation requires that all
new contracts and solicitations with an estimated value over $100,000 being performed in the CENTCOM
theater of operations include language prohibiting contractors from entering into subcontracts with persons or
entities determined to be aiding the enemy. It also states that agencies shall, to the maximum extent
practicable, bilaterally or mutually modify existing contracts to include this language. In addition, the language
informs contractors of authorities granted to HCAs under Section 841 to restrict, terminate, and void a contract
if they determine the contractor failed to exercise due diligence in preventing funds from going to persons or
entities receiving Section 841 designations.
However, our review of a judgmental sample of 129 contracts at select C-JTSCC Regional Contracting Centers
found that contracting officers had not modified the base contracts for 28 reviewed task orders—issued on
contracts awarded prior to the enactment of Section 841—to include the DFARS clause. We also found that 31
of the remaining 101 contracts, awarded after enactment of Section 841, did not contain the clause. Failureto
include the clause in new and pre-existing contracts means that contractors may be unaware of the authorities
granted to HCAs to terminate contracts under Section 841 and the requirement that they perform due diligence
to avoid contracting with Section 841 designees.
During our reviews of contracts, we determined that 1 of the 66 USACE contracts and 4 of the 35 AFCEC
contracts reviewed did not include the full text of the clause. USACE and AFCEC have already taken steps to
include the DFARS clause in base contracts when a new task order is placed on a contract that was issued prior
to the enactment of Section 841.

HCAs and Prime Contractors Do Not Consistently Receive Notification of Section 841 Designations
Under Section 841, HCAs are responsible for identifying and making a determination of action on any contracts
issued to persons or entities designated in the CENTCOM Commander’s notification letter. CENTCOM
distributes the notification directly to key heads of agency and select HCAs, who are then responsible for
distributing the letters to their subordinate agencies. However, not all HCAs have received the distributed
notification letters. For example, USACE did not receive the first notification letter, dated July 24, 2012, from
the Department of the Army until the issuance of the second letter on September 20, 2012. Also, the Office of
the Undersecretary of Defense for Acquisition, Technology and Logistics (OSD AT&L) 17 currently has not
provided formal guidance for the dissemination of Section 841 notification letters from the head of agency level
to subordinate HCAs. While HCAs and contracting officials could obtain Section 841 designations from the
Joint Contingency Contracting System, they are not required to review information in the system. 18 Further,
some agencies overseeing contracts in Afghanistan may not be familiar with the Joint Contingency Contracting




17 OSD AT&L is responsible for establishing policies for acquisition (including procurement of goods and services, research
and development, developmental testing, and contract administration), for all elements of the Department of Defense.
18 The Joint Contingency Contracting System, a contracting database, is the only system in which CENTCOM records
Section 841 designations. However, a DOD official stated that only contracting officers can view that information in the
system.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                  Page 5
System. 19 Agencies that do not receive the notification letters and do not have access to the Joint Contingency
Contracting System may be unaware of the persons or entities designated under Section 841, and, as a result,
maybe unable to terminate, restrict, or void contracts with the designees as stipulated in the law.
Moreover, HCAs have not consistently informed their prime contractors of Section 841 designations or sent
them copies of the notification letters. The CENTCOM Commander included language in the third Section 841
notification letter requesting that HCAs disseminate the letter to their prime contractors and notify CENTCOM of
                                              20
any subcontracts with the designees listed. However, OSD AT&L has not developed formal policies requiring
HCAs to disseminate Section 841 notification letters to all their prime contractors. Further, prime contractors
do not have access to an information system, such as the Joint Contingency Contracting System, that includes
data on companies with Section 841 designations. In January 2013, CENTCOM began posting Section 841
designations on its website; however, contracting officers and prime contractors are not currently required to
regularly review the listed designations. If prime contractors do not receive the notification letters or have the
ability to access a system containing information on Section 841 designees, they may be unaware of Section
841 designations and continue to subcontract or award future subcontracts to persons or entities identified as
actively supporting the insurgency or actively opposing U.S. or coalition forces in violation of the law.

Contractors Are Not Required to Certify That They Do Not Have Contracts with Section 841 Designees
Because HCAs do not have full visibility over most subcontracts awarded, they must rely on their prime
contractors’ due diligence to ensure that subcontracts are not awarded to persons or entities identified under
Section 841. Although CENTCOM has begun to request that HCAs distribute the Section 841 notification to
their prime contractors, there is no requirement for prime contractors to formally attest that they do not hold
subcontracts with Section 841 designees. 21 As a result, officials have limited assurance that they are
identifying all contracts with Section 841 designees.


DOD Lacks Guidance on Actions to Take After Exercising Section 841 Authorities
and Also Lacks Mechanisms for Tracking and Reporting Contracting Actions Implemented
DOD has not provided HCAs with guidance on how to address the possible consequences of using their Section
841 authorities to terminate, restrict, or void a contract. For example, after receiving notification of the first
Section 841 designee, AFCEC requested all of its prime contractors to identify subcontracts with the designee.
As directed, a prime contractor terminated a subcontract with this designee. Although the Section 841
designation is unclassified, the information CENTCOM uses to make a determination may be classified and is
not shared with contractors. 22 As a result, in one instance, the prime contractor could not inform the
subcontractor of the reasons for the termination. In September 2012, the subcontractor filed a complaint
against the prime contractor with the Afghan government. As a result of the complaint, the prime contractor
contacted AFCEC for assistance. AFCEC subsequently contacted CENTCOM for guidance but did not view
CENTCOM’s suggestion that legal counsel should be sought as responsive to the issue. As of January 31,
2013, the matter was unresolved. USACE officials stated they experienced similar challenges with the same
subcontractor.


19 A supervisory contracting officer with AFCEC informed us that contracting officials with his agency in Afghanistan do not
utilize the Joint Contingency Contracting System for any contracting activities.
20   The third Section 841 notification letter is dated November 16, 2012.
21 Section 842 of the fiscal year 2012 NDAA gives DOD authority to examine the records of contractors as well as their
subcontractors, if there is reason to believe that funds available under the contract may have been subject to extortion,
corruption or may have been provided to person or entities actively supporting an insurgency or opposing U.S. or coalition
forces. However, DOD may not know which prime contractors hold subcontracts with Section 841 designees, and therefore
may be unable to fully utilize Section 842 in support of Section 841.
22   Section 841 provides that such information can be shared pursuant to a protective order issued by a court of law.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                      Page 6
AFCEC officials also expressed concerns about the lack of guidance for absorbing the financial costs of
exercising Section 841 authorities. For example, with the termination of the contract with the Section 841
designated subcontractor, AFCEC incurred further expenses as its prime contractor sought and employed a new
company to complete the work once performed by the Section 841 designee. Without established guidance,
HCAs and prime contractors are at risk of facing legal challenges from Section 841 designees and may have to
absorb financial costs associated with implementing Section 841 authorities.
In addition, DOD does not centrally track responses to the Section 841 notification letters and actions taken to
terminate, restrict, or void contracts. Under Section 841, the Secretary of Defense is required to report
annually by March 1 of 2013, 2014, and 2015, to various congressional committees on the use of the
section’s authorities during the preceding year. OSD AT&L, specifically the Office of Defense Procurement and
Acquisition Policy, is responsible for submitting the mandated report and is obtaining this data directly from the
various services and other contracting agencies. CENTCOM is also collecting Section 841 data, resulting in a
duplication of effort. OSD and CENTCOM officials informed us that they plan to compare the data collected for
consistency and accuracy. Without a centralized tracking mechanism, DOD may continue to duplicate data
collection efforts.


SECTION 841 LEGISLATION NEEDS TO BE STRENGTHENED

In addition to the weaknesses identified in DOD’s processes, we noted several limitations in Section 841 of the
NDAA. First, not all DOD contracts within Afghanistan are subject to the provisions of Section 841 because the
section only applies to contracts valued in excess of $100,000. However, a large number of awarded contracts
are below the $100,000 threshold. For example, 7,730 of 9,733 (or approximately 80 percent) contracts C-
JTSCC awarded in fiscal year 2012 were contracts valued under $100,000. Furthermore, 82 percent of
contracts awarded to Afghan entities fell below this threshold.
Second, because Section 841 provisions expire on December 31, 2014, the future status of contracts and
Section 841 designees is unclear. Specifically, the legislation does not address whether Section 841
provisions will continue to apply to contracts entered into prior to but active after the expiration date. If Section
841 provisions are not reauthorized, HCAs’ authority to terminate, restrict, or void active contracts with entities
and individuals found to be in violation of Section 841 may be limited. In addition, if Section 841 designees
are not prohibited from contracting with DOD under alternative measures after 2014, it is possible that DOD’s
contracting agencies may enter into contracts with these persons or entities in the future. Finally, DOD officials
expressed concern that information and intelligence gathered through the Section 841 process may be lost if
the provisions expire.
Third, as enacted, Section 841 applies only to DOD and its various agencies and organizations. Thus, agencies
other than DOD—most notably the Department of State and U.S. Agency for International Development—are not
subject to its provisions. 23 SIGAR issued an alert letter on October 17, 2012 notifying the Department of State
and the U.S. Agency for International Development of the first two groups of individuals and entities identified
as Section 841 designees. This alert letter acknowledged that, while Section 841 only affects DOD contracts,
both the Department of State and the U.S. Agency for International Development use many of the same
contractors as DOD, and consequently there could be a present or future risk that the Department of State and
the U.S. Agency for International Development could have active prime or subcontracts with Section 841
designees. We are addressing Department of State and U.S. Agency for International Development efforts to
prevent contracting with the enemy in a separate review.




23 As of the third notification letter dated November 16, 2012, the Department of State and U.S. Agency for International
Development are included in CENTCOM’s distribution list.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                 Page 7
CONCLUSION

Although DOD has established a process to implement Section 841, weaknesses in the process prevent the
department from having reasonable assurance that it is identifying all contracts held by persons or entities
determined to be actively supporting the insurgency and opposing U.S. or coalition forces. Because HCAs do
not have visibility over subcontracts awarded in Afghanistan, they rely exclusively on prime contractors to
determine whether they have awarded subcontracts to persons or entities with Section 841 designations.
However, contracting agencies do not require prime contractors to certify that they do not have contracts with
Section 841 designees, making it difficult for DOD to identify and terminate contracts with supporters of the
insurgency and other enemy groups. As a result, millions of U.S. contracting dollars could be diverted to forces
seeking to harm U.S. military and civilian personnel in Afghanistan and derail the multi-billion dollar
reconstruction effort.
In addition, DOD also has not developed guidance describing the steps HCAs should take to respond to any
legal challenges brought and financial liabilities incurred as a result of contracts terminated under Section 841.
Therefore, HCAs and prime contractors may not be able to respond appropriately or consistently to these
challenges. Further, prime contractors may be less inclined to terminate, restrict, or void subcontracts with
Section 841 designees when faced with increased expenses and unclear or limited legal recourse.
Finally, Section 841 could be strengthened to ensure that all contracts in Afghanistan and other countries in
the CENTCOM theater of operations are subject to its provisions—specifically Department of State and U.S.
Agency for International Development. Further, it is unclear whether the Section 841 designations will be
enforceable, and the related information will be maintained, after the legislation expires at the end of 2014,
even though U.S. agencies will continue to contract in Afghanistan after the military drawdown and transition
are complete. Consequently, agencies may continue to contract or enter into new contracts with persons and
entities identified as supporting the enemy and other groups opposing the U.S. and coalition forces, thus
increasing the risk that U.S. taxpayer funds could be diverted to these enemy groups.


RECOMMENDATIONS

To improve DOD’s visibility over active contracts in Afghanistan, particularly subcontracts, so that they can take
the required action if necessary, we recommend that the Director of the Office of Defense Procurement and
Acquisition Policy,

    1. Require all Heads of Agency in the CENTCOM theater of operations, including Afghanistan, develop a
       standard mechanism for distributing Section 841 notification letters to their HCAs.

    2. Require all HCAs with contracts in the CENTCOM theater of operations, including Afghanistan, to
       develop a standard mechanism for distributing Section 841 notification letters to all prime
       contractors.

    3. Direct HCAs to require prime contractors to certify that they do not have subcontracts with Section
       841 designees.

    4. Require all DOD contracting agencies and prime contractors with contracts in the CENTCOM theater of
       operations to use an information system, such as the Joint Contingency Contracting System or the
       CENTCOM website, to track the Section 841 designations.

    5. Enforce DFARS Class Deviation 2012-O0005 that requires the Section 841 clause be included in
       contracts, unless HCAs provide justification for exemption.




SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                         Page 8
To prevent duplication of data collection efforts, we recommend that the Director of the Office of Defense
Procurement and Acquisition Policy, in coordination with the Commander of U.S. Central Command,

    6. Formally assign either the Office of Defense Procurement and Acquisition Policy or CENTCOM the
       responsibility for centrally tracking, at a minimum, the number and value of contracts, grants, and
       cooperative agreements HCAs have restricted, terminated, or voided using their Section 841
       authorities.
To ensure that HCAs have the information needed to respond to any legal challenges and financial liabilities
resulting from exercising Section 841 authorities, we recommend that the Director of the Office of Defense
Procurement and Acquisition Policy, in coordination with relevant agency contracting offices,

    7. Develop and distribute guidance to HCAs about actions to take once they have restricted, terminated,
       or voided a contract under Section 841.


MATTERS FOR CONGRESSIONAL CONSIDERATION

To ensure that all contracts in Afghanistan are subject to the provisions of Section 841, Congress may wish to
consider revising the legislation to eliminate the $100,000 threshold value for contracts.
To provide DOD with greater clarity on the future of designations and efforts made under Section 841,
Congress may wish to consider providing guidance on the status of the designations once the legislation
expires on December 31, 2014. If the intent is for Section 841 designations to expire with the legislation,
Congress may wish to consider requiring contracting agencies to preserve information and intelligence
gathered through the Section 841 process and take this information into account when awarding new contracts
in 2015 and beyond.


AGENCY COMMENTS

CENTCOM, USACE, and AFCEC provided technical comments, which we incorporated into our final report, as
appropriate. DOD’s Office of Defense Procurement and Acquisition Policy officials provided informal comments
that generally supported our recommendations for improving the process for notifying the DOD acquisition
community and contractors of Section 841 designees, and stated that they will provide formal comments after
the release of the final report. When received, we will address these comments in a separate document and
post to our website at www.sigar.mil.




SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                          Page 9
APPENDIX I - SCOPE AND METHODOLOGY

Our objectives were to (1) describe the processes Department of Defense (DOD) has established to implement
Section 841, (2) assess the extent to which DOD’s policies and procedures for implementing Section 841 have
been able to identify and prevent U.S. contracting funds from being provided to individuals and entities
identified as actively supporting an insurgency or opposing U.S. or coalition forces in Afghanistan, and (3)
identify areas of the Section 841 legislation that could be strengthened to prevent contracting with the enemy.
To describe the processes DOD established to implement Section 841, we reviewed the provisions of Section
841 and several recent DOD contracting policies. These policies included the Defense Federal Acquisition
Regulation Supplement (DFARS), the September 2011 United States Central Command (CENTCOM)
Contracting Command (C-JTSCC) Acquisition Instruction, the May 2012 Contracting Officer’s Guide for Theater
Business Clearance for Afghanistan, the International Security Assistance Force Commander’s contracting
                                                              24
guidance, and the U.S. government counterinsurgency guide. We also examined Task Force 2010’s
(TF2010) Section 841 designation policies and procedures and designation packages, as well as the CENTCOM
Vendor Vetting Reachback Cell’s processes for vetting contractors doing work in support of U.S. forces in
Afghanistan and Iraq. We sent a standardized questionnaire to 23 heads of agency and Heads of Contracting
Activity (HCA) listed in the second CENTCOM Commander’s Section 841 designation letter. The questionnaire
sought to identify the policies and procedures used by heads of agency and HCAs to consider the CENTCOM
Commander’s request and the factors they considered in determining whether to exercise the authority
provided by Section 841. We received and analyzed 11 responses.
To assess the extent to which DOD’s Section 841 policies and procedures have been able to identify and
prevent U.S. contracting funds from being provided to individuals and entities identified as actively supporting
an insurgency or opposing U.S. or coalition forces, we interviewed DOD officials representing the Office of
Defense Procurement and Acquisition Policy, 25 CENTCOM and its Vendor Vetting Reachback Cell, U.S. Army
Corp of Engineers (USACE) Transatlantic Division, and the Air Force Civil Engineering Center (AFCEC). We also
interviewed U.S. Forces–Afghanistan and C-JTSCC officials including the Senior Contracting Official–
Afghanistan, the Director and other representatives of TF2010, and officials from Regional Contracting Centers
at Camp Phoenix in Kabul, Bagram Air Field, and Kandahar Air Field. In addition, we interviewed officials from
the USACE Afghanistan Engineer District-North and South and a senior AFCEC contracting representative in
Kabul. As part of evaluating DOD’s established Section 841 policies and procedures, and to ensure
compliance with Section 841 and DFARS contract clause requirements, we reviewed 230 contracts awarded
between February 1, 2012 and September 30, 2012 by one of three agencies─C-JTSCC, USACE and
AFCEC─with the contracts located in Kabul, Kandahar, and Parwan, Afghanistan and San Antonio, Texas.
To identify areas of the Section 841 legislation that could be strengthened, we reviewed Section 841 of the
National Defense Authorization Act (NDAA) for Fiscal Year 2012. In addition, we interviewed relevant DOD
officials that were familiar with Section 841 legislation.
We did not use or rely on computer-processed data for the purposes of the audit objectives. With respect to
assessing internal controls, we reviewed compliance with Section 841 and the DFARS. The results of our
assessment are included in the body of this report.
We conducted work in Washington, D.C.; Tampa, Florida; San Antonio, Texas; and Kabul, Kandahar, and
Parwan provinces in Afghanistan from August 2012 to April 2013, in accordance with generally accepted
government auditing standards. These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

24 Theater Business Clearance requirements are generated from Battlefield Commander orders and apply to contracts in
the battle space.
25 The Office of Defense Procurement and Acquisition Policy reports to the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                Page 10
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The audit was conducted by the Office of Special Inspector General
for Afghanistan Reconstruction under the authority of Public Law No. 110-181, as amended; the Inspector
General Act of 1978; and the Inspector General Reform Act of 2008.




SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                   Page 11
APPENDIX II - DEPARTMENT OF DEFENSE SECTION 841 IMPLEMENTATION
PROCESS

The Department of Defense (DOD), through U.S. Central Command (CENTCOM), has implemented a two-phase
process to comply with the provisions of Section 841—Prohibition on Contracting with the Enemy in the United
States Central Command Theater of Operations—of the National Defense Authorization Act for Fiscal Year
2012. 26 The first phase of this process involves targeting, reviewing, and designating Section 841 persons or
entities, and notifying heads of agency and Heads of Contracting Activity (HCA). In the second phase, the head
of agency or HCA receives the notification and determines if it has any contracts with the person or entity listed
in the notification. The process concludes when the head of agency or HCA responds to CENTCOM with the
number and value of contracts identified with the person or entity and the actions taken on those contracts.

Figure I - Section 841 Process




Source: SIGAR analysis of Task Force 2010 Section 841 process flow chart and interviews with task force and select Heads
of Contracting Activity officials.




26   Pub. L. 112-81.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                            Page 12
Phase One: CENTCOM Analyzes Information on Section 841 Targets, Approves
Designations, and Notifies Key Heads of Agency and Select HCAs
As the entity charged by CENTCOM to initiate the Section 841 designation process, Task Force 2010 (TF2010)
identifies targets from self-initiated cases, Vendor Vetting Reach Back Cell (VVRC) reports, and other sources. 27
Approximately 50 percent of TF2010’s targets are self-initiated cases. These are cases initiated based on the
task force’s criminal investigations or where the task force has been investigating an individual or entity for an
extended period of time. 28 About 25 percent of Section 841 cases are built from VVRC reports. These reports
assign non-U.S. contractors a force protection evaluation rating. 29 Because Section 841 only applies to
persons or entities that are actively supporting the insurgency or opposing U.S. and coalition forces, TF2010
determines whether the intelligence gathered is recent enough to pursue a Section 841 designation. 30 The
remaining 25 percent of TF2010 targets are generated by other sources, such as the International Criminal
Investigation Task Force 31 and the Afghan Threat Finance Cell. 32

Review Process and Designation
According to TF2010 officials, once they have targeted a prospect, they assemble an informational intelligence
package on the person or entity. The intelligence package contains information such as known civil and
criminal activities, affiliations and associations with malign actors, and known terrorism and insurgent ties, and
may include unclassified or classified data. The assessment is a compilation of all information TF2010
believes CENTCOM needs to make a determination of whether to give the person or entity being targeted a
Section 841 designation. 33 TF2010 ultimately determines if a target is actively supporting an insurgency or
otherwise opposing U.S. or coalition forces based on the quality, quantity, timeliness, and level of corroboration
of the evidence. Once a target has been confirmed based on the evidence, the package also undergoes an
internal legal review.
TF2010 subsequently conducts a contract impact analysis to identify any potential second or third order
effects. This analysis helps to determine the consequences in the area of operations if the contractor were to
be removed. For example, the person or entity targeted may be the only contractor available to provide the
good or service in the area of operations and removing the contractor may prove detrimental to the overall
mission.
After these steps are completed and the Director of TF2010 approves the package, it is routed through a series
of coordinating agencies within the International Security Assistance Force (ISAF) Joint Command for review


27 The Vendor Vetting Reachback Cell is responsible for vetting all non-U.S. contractors bidding for contracts equal to or
above $100,000 in the Afghanistan theater of operations.
28   TF2010 tracks targets by maintaining a top 15 list of active targets.
29 After completing an investigation on a contractor, the Vendor Vetting Reachback Cell creates an analytical report and
classifies contractors into one of four force protection risk levels: moderate, significant, high, or extremely high. High or
extremely high risk levels generally result in the contractor being excluded from further consideration for new contract
awards. TF2010 has ranked approximately 1,600 to 1,700 Vendor Vetting Reachback Cell reports based on these
assigned force protection ratings.
30   TF2010 generally considers information that is no more than 90 days old.
31 The International Criminal Investigation Task Force conducts investigations of detainees captured in the war on
terrorism. The task force includes representatives from the Army Criminal Investigation Division, Naval Criminal
Investigative Service, and Air Force Office of Special Investigations.
32 Formed in 2008 by the U.S. Drug Enforcement Administration, the Afghan Threat Finance Cell identifies, tracks, and
attempts to disrupt financial networks that fund insurgents.
33 During this part of the process, TF2010 considers information such as (1) force protection—the factors that are most
critical for troop safety, (2) the number of open contracts and what these contracts are providing, and (3) contract size—
how much money is flowing to the enemy.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                                     Page 13
and agreement before it reaches CENTCOM for a final decision. The Section 841 designation package receives
a number of senior level approvals, including approvals by the Deputy Chief of Staff of ISAF Joint Command, the
Commander of ISAF Joint Command, and the Commander of ISAF/U.S. Forces–Afghanistan, before finally
reaching CENTCOM. Once at CENTCOM, the package is subject to another intelligence review in addition to
legal evaluation from the CENTCOM Judge Advocate. The CENTCOM Commander then reviews the package
and all of the information compiled to this point and makes the final determination. 34

Notification
If the CENTCOM Commander approves the Section 841 designation package, the Commander writes an
unclassified Section 841 notification letter listing the persons or entities involved, along with a request that the
recipients exercise the authority provided in Section 841. 35 CENTCOM then distributes the Section 841
notification letter by email to key heads of agency and select HCAs.


Phase Two: HCAs Identify Contracts with Section 841 Designees and Determine
Whether to Restrict, Terminate, or Void Affected Contracts
Once heads of agency and HCAs receive the Section 841 notification letter, they are responsible for
determining if subordinate commands have any contracts with the identified persons or entities. Although not
required by Section 841, the CENTCOM Commander directs the heads of agency and HCAs to report back, at a
minimum, on the number of contracts they restricted, terminated, or voided, and the value of those contracts.
Based on our review of responses to a standardized questionnaire from 11 of the 23 heads of agency and
HCAs on CENTCOM’s 841 notification letter distribution list as of September 17, 2012, we determined that
their processes to identify and report on contracts held with Section 841 designees ranged from formal to ad
hoc. Seven of the 11 respondents indicated that they had no formal or written policies and procedures to
comply with CENTCOM’s directive or Section 841 provisions. For example, one HCA responded that a formal
written policy does not exist with regard to Section 841 notifications. Instead, the agency conducts an informal
poll of its contracting officers and believes this informal querying process is sufficient. Another noted that a
formal process was unnecessary due to the low probability of the agency having a contract, grant, or
cooperative agreement affected by the CENTCOM Commander’s notification letter. Of the four agencies that
reported using formal or written procedures, three stated they were currently in the draft or review stage of
finalizing the procedures; however, these draft procedures primarily consisted of querying their respective
contract databases and notifying their contracting officers of the Section 841 notification letter.




34   A total of six Generals are part of the review, coordination, and determination process.
35 According to the provisions of Section 841, the CENTCOM Commander can request, not require, that an HCA restrict,
terminate, or void a contract, grant, or cooperative agreement.

SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA                                            Page 14
APPENDIX III - ACKNOWLEDGMENTS

Gabriele Tonsil, Senior Audit Manager
Scott Harmon, Auditor-in-Charge
Paola Bobadilla, Program Analyst
Martin Wilson, Program Analyst




SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA   Page 15
                            This inspection report was conducted under
                                     project code SIGAR-066A.




SIGAR Audit 13-6/DOD Compliance with Section 841 of the FY2012 NDAA      Page 16
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
